Summary of Eleven Indirect-Cost Audits
   and NSF’s Process for Reviewing
       Indirect-Cost Proposals


        National Science Foundation
        Office of Inspector General



             September 29, 2006
               OIG 06-2-012
               FOR OFFICAL USE ONLY

            REPORT RELEASE RESTRICTION

THIS REPORT MAY NOT BE RELEASED TO ANYONE OUTSIDE THE
NATIONAL SCIENCE FOUNDATION WITHOUT ADVANCE APPROVAL
BY THE NSF OFFICE OF INSPECTOR GENERAL. THE ONLY
EXCEPTION IS AN AGENCY INVOLVED IN NEGOTIATING OR
ADMINISTERING NSF AWARDS. THE INFORMATION IN THIS
REPORT SHOULD BE TREATED AS CONFIDENTIAL AND MAY NOT
BE USED FOR PURPOSES OTHER THAN ORIGIANLLY INTENDED
WITHOUT PRIOR CONCURRENCE FROM THE NSF OFFICE OF
INSPECTOR GENERAL.




 .
EXECUTIVE SUMMARY

        The National Science Foundation (NSF) negotiates indirect cost rates for about 90
organizations on behalf of the Federal government. From 2000-2004 these organizations
received $3.8 billion in Federal funding, of which $760 million (20 percent) was for
indirect costs. To assess the risk of excessive indirect cost payments charged to the
Federal government by these organizations, we audited indirect cost proposals submitted
to NSF for the years 1997-2002 by 11 of these organizations. These entities received
approximately $201 million of Federal funds from 2000-2004, of which about $84
million or 42 percent was funded by NSF.

        We found four common problems in these proposals: overstated indirect cost
pools, understated direct cost bases, inadequate supporting documentation, and untimely
or no submission of indirect cost proposals. We also found that there were four common
causes of these findings: lack of understanding of the Federal requirements for
calculating indirect cost rates, missing or inadequate policies and procedures to prepare
indirect cost proposals, accounting system deficiencies, and time-and-effort reporting
deficiencies.

        To determine if improvements in NSF processes could help detect and prevent the
common findings and their causes in future rate negotiations, we compared NSF’s
proposal review processes to guidance in OMB Circulars, other agencies’ proposal
review procedures, and NSF’s existing guidance. We found that NSF did not obtain
current information about awardees’ financial management systems at the time of each
proposal review, or consistently maintain information on prior rate negotiations in its
indirect-cost files. We also found that NSF had not developed guidance for its reviewers
to use in evaluating submitted proposals, or adopted other agencies’ existing guidance,
and that it needed to fully implement a proposal tracking system to track the due dates
and actual receipt of proposals and to follow up on untimely submissions.

        Accordingly, we recommended that the Director of the Division of Institution and
Award Support develop a risk-based program to review indirect cost proposals. At a
minimum the program would include updated assessments of awardees’ financial
management systems, historical files on prior rate negotiations with each awardee,
guidance for reviewers to use in processing submitted proposals, and effective tracking of
proposal receipt and follow up if proposal submissions are late. In response to our
recommendations, NSF agreed to continue improving its program for the negotiation of
indirect cost rates. 1 However, NSF did not comment on the inclusion of an updated
assessment of awardees’ financial management systems as part of its risk-based program
for proposal review. Because the audits showed that many of the common findings were
caused by the inadequacy of awardees’ financial management systems, we believe that an
understanding of awardees’ current financial management systems is an essential part of

1
 We have summarized NSF’s response and provided our comments after each recommendation in the body
of the report. We have also included NSF’s response to our draft report in its entirety as Attachment 1.
Because NSF’s response suggests some misunderstanding regarding our draft report, we have provided
additional responses to the NSF reply in Attachment 2.


                                                   i
risk analysis at the proposal-review stage. In addition, although NSF has implemented
some of the elements in the recommendation, it is important that it incorporate each of
these elements into written policies and procedures for staff use.




                                            ii
                              TABLE OF CONTENTS

                                                                       Page

Executive Summary                                                         i

Introduction                                                              1

Objectives, Scope, and Methodology                                        3

Audit Reports of Indirect Cost Proposals Identify Common Weaknesses       4

Awardee Proposal Deficiencies Suggest Need for
Expanded NSF Proposal Review                                              8

Recommendations                                                          13

NSF’s Response and OIG’s Comments                                        14

Appendix A: OIG Audits                                                   16

Appendix B: Compilation of Possible Steps to Review
            Timeliness and Quality of Indirect Cost Proposals           17

Appendix C: Comparison of NSF Proposal Review Practices To
             Possible Review Steps Included in Appendix B                19

Appendix D: Common Findings in Audit Reports                             21

Appendix E: Common Causes of Findings                                    22

Attachment 1 NSF’s Response                                              23

Attachment 2 Additional Summary of NSF Responses to Draft Report and
             OIG Replies                                                 26




                                         iii
                            ACRONYMS


ANS     Academy of Natural Sciences
AAPT    American Association of Physics Teachers
ACS     American Chemical Society
AGU     American Geophysical Union
AMS     American Meteorological Society
BLOS    Bigelow Laboratory for Ocean Sciences
BM      Bishop Museum
CAARB   NSF’s Cost Analysis and Audit Resolution Branch
CIW     Carnegie Institution of Washington
DGA     NSF’s Division of Grants and Agreements
DIAS    NSF’s Division of Institution and Award Support
DOL     U. S. Department of Labor
EBC     Educational Broadcasting Corporation
HHS     U. S. Department of Health and Human Services
MAA     Mathematical Association of America
MBG     Missouri Botanical Garden
NSF     National Science Foundation
OIG     NSF’s Office of the Inspector General
OMB     U. S. Office of Management and Budget
PAR     Personnel Activity Report
PNAG    NSF’s Prospective New Awardee’s Guide
SOG     NSF’s Standard Operating Guidance




                                  iv
INTRODUCTION

Background

        Federal grant regulations allow grantees to charge both direct and indirect costs to
Federal awards. Indirect expenses include activities and supplies that have been incurred
for common or joint objectives. Unlike direct costs, indirect costs are not easily traceable
to a particular award and they generally appear on award budgets as a percent of direct
costs. To determine the percent, award recipients negotiate indirect rates with their
cognizant agencies, the Federal agencies that normally provide the awardees with the
largest amount of Federal funding. The National Science Foundation (NSF) is the
cognizant agency for about 90 non-profit organizations.

        In the negotiation process, an awardee first submits an indirect cost rate proposal to
its cognizant agency. The U.S. Office of Management and Budget (OMB) provides
guidance to awardees on the timing and content of these proposals. Specifically, OMB
Circular A-122, Cost Principles for Non-Profit Organizations, states that awardees must
submit indirect cost proposals annually to their Federal cognizant agencies. The Circular
explains several methodologies for calculating indirect cost rates. In general, awardees
calculate their indirect cost rates by dividing their indirect cost pools by their direct cost
pools.

         After an awardee submits an indirect cost proposal to its cognizant agency, the
agency determines whether the proposal complies with the OMB guidance and fairly
allocates indirect costs to all the organization’s activities or projects. The cognizant agency
will also determine whether a more extensive review of the proposal is required, such as a
site visit. In the final step, the agency and the awardee negotiate an indirect cost rate to be
used by all Federal agencies on all Federal awards made to that awardee. If the awardee
has a prior history with the agency and has submitted reliable proposal submissions in the
past, the agency may agree to a predetermined rate, which is not subject to future
adjustment. However, if the agency has little experience with an awardee, or otherwise
considers it risky, it may negotiate a provisional rate. This rate must be finalized, which
means that after the end of the year, the cognizant agency must determine the awardee’s
actual rate for the year. After the actual rate is finalized, the awardee will then adjust its
charges for indirect costs on Federal awards based on the actual rate. 2




2
  NSF typically uses a maximum provisional rate, which in effect limits the awardee to a recovery of indirect
costs at the lower of the provisional rate established at the beginning of the year or actual rate established at
the end the year.




                                                           1
Indirect Cost Negotiation at NSF

        At NSF the Cost Analysis and Audit Resolution Branch (CAARB) 3 is responsible
for negotiating indirect cost rates for the organizations for which NSF has indirect cost rate
cognizance. CAARB, which has 14 employees, performs multiple responsibilities. In
addition to negotiating indirect cost rates, CAARB is responsible for resolution of audit
reports and preaward and postaward monitoring of activities. The CAARB staff perform all
of these functions, but there is a designated team leader for indirect cost rate negotiations.

        For guidance in reviewing indirect cost proposals, CAARB sometimes refers to
external publications from other agencies, such as the Review Guide for Non-Profit
Organization’s Indirect Cost Proposals, developed by the Department of Health and
Human Services (HHS). This guide is specifically written for proposal reviewers. CAARB
also refers occasionally to the Indirect Cost Rate Determination Guide, prepared by the
Department of Labor (DOL). This guide is not directed to proposal reviewers but rather to
awardees that submit proposals. It explains how to prepare an indirect cost proposal and
provides examples of the application of two methodologies and answers to frequently-asked
questions. NSF also has two guides that contain questionnaires that reviewers can use in
assessing the financial management systems of awardees for which NSF has assumed
responsibility for negotiating indirect cost rates. These guides are Standard Operating
Guidance 1990-06 (SOG 1990-06) and Prospective New Awardee Guide (PNAG).

The Importance of Accurate Indirect Cost Rate Negotiations at NSF

        From 2000 to 2004, the organizations for which NSF has indirect cost rate
cognizance expended a total of a $3.8 billion in Federal funds of which $2.3 billion, or 61
percent, was funded by NSF. Of the $3.8 billion about $760 million, or about 20 percent,
was for indirect costs. Because of the large amount of funds involved, the negotiation of
accurate rates is important. To assess the risk that NSF may be overpaying indirect costs on
NSF awards, the NSF Office of the Inspector General (OIG) decided to audit proposals
from 11 awardees for which NSF negotiates indirect cost rates. 4 The audits were selected
on the basis on an independent OIG risk assessment as well as CAARB referrals of
proposals it concluded had serious deficiencies. The 11 audited organizations claimed
approximately $201 million of Federal funds from 2000-2004, of which about $84 million,
or 42 percent was funded by NSF.
3
  CAARB is part of the Division of Institution and Award Support, which is under the Office of Budget,
Finance, and Award Management.
4
  The organizations audited were: The Academy of Natural Sciences (ANS), the American Association of
Physics Teachers (AAPT), the American Chemical Society (ACS), the American Geophysical Union (AGU),
the American Meteorological Society (AMS), the Bigelow Laboratory for Ocean Sciences (BLOS), the
Bishop Museum, the Carnegie Institution of Washington (CIW), the Educational Broadcasting Corporation
(EBC), the Mathematical Association of America (MAA), and the Missouri Botanical Garden (MBG).




                                                     2
OBJECTIVES, SCOPE, AND METHODOLOGY

        The objectives of this report are a) to summarize the results of 11 audits that
addressed weaknesses in awardees’ processes for preparing accurate and complete indirect
cost proposals, and b) to identify improvements in NSF’s procedures for reviewing and
approving awardees’ indirect cost rates. To address the first objective, we reviewed 11
audit reports, covering 19 indirect cost proposals submitted to NSF for the years 1997-2002
(See Appendix A). To address the second objective, we researched OMB Circulars, NSF’s
procedures, and guidance from four other agencies, 5 to identify ways in which NSF can
enhance its current practices to help prevent the problems found in our audits. (See
Appendix B.) We then reviewed 41 proposals in CAARB’s files from 1995 to 2002 6 from
the audited institutions to understand NSF’s proposal review process. We compared
CAARB’s review and approval processes with those used by other Federal agencies. (See
Appendix C.)

        Because NSF did not always keep information about awardees’ financial
management systems and historical rate negotiations in its files, we could only measure
NSF’s processes designed for the review of specific proposals. These processes included
the assessment of the completeness of the proposal; reconciliation of total costs in the
proposal to total costs on the financial statements; analysis of adjustments and
reclassifications; and determination if the direct cost base equitably distributes indirect
costs, proposed costs are allowable and consistently treated, and the proposal requires
extensive review or a site visit. To assess the timeliness of proposal receipt, we compared
the actual receipt dates for 75 possible proposals NSF should have received between 1995-
2002 7 from the audited institutions with the required due date, which is six months after the
end of an awardee’s fiscal year.

       We conducted the audit for this summary report in accordance with the Comptroller
General’s Government Auditing Standards (2003) and included such procedures that we
considered necessary to address the audit objectives.




5
  The four other agencies are: the Department of Health and Human Services (HHS), the Office of Naval
Research (ONR), the Department of Labor (DOL), and the Department of Energy (DOE).
6
  At the time of our review, there was only one proposal for FY 2003 in the CAARB files, and we included
this proposal to increase the sample size. Otherwise, the sample covers the period from 1995-2002 (eight
years). Also, we included two years of proposals prior to 1997, the earliest year audited, so we could better
understand the processes used for proposals immediately prior to those in which auditors found inflated
indirect cost rates.
7
  There were fewer than 88 possible proposals (11 awardees * 8 years) because we used the first available
proposal in the CAARB files as the starting point for each awardee.




                                                          3
AUDIT REPORTS OF INDIRECT COST PROPOSALS
IDENTIFY COMMON WEAKNESSES

         The 11 audits of indirect cost rate proposals covered by this review identified four
major categories of common findings: overstated indirect cost pools, understated direct
cost bases, unsupported indirect costs, and untimely indirect cost submissions. Awardees
overstated their indirect cost pools by $9 million, understated $7.2 million of costs in their
direct cost bases, and did not provide supporting documentation for $676,603 of claimed
costs. 8 Further, five proposals were never submitted, and five were late, including one that
was three years late. Without reliable and timely indirect cost proposals, there is a risk that
NSF will reimburse excessive indirect costs.

Overstated Indirect Cost Pools ($9 million)

        Ten of the audits found that contrary to Federal requirements, awardees included
unallowable and excessive costs in their indirect cost pools, misclassified direct costs as
indirect costs, and did not offset indirect cost pools with applicable credits. For example:

         •   Ten awardees included $1.2 million of unallowable costs in their indirect cost
             pools, including $234,860 of property losses, $148,497 of bad debt expense,
             $134,886 of depreciation of government-funded assets, and $108,617 of
             investment expense.
         •   Six awardees misclassified $6.2 million of direct costs, such as mission-related
             activities, as indirect costs.
         •   Four awardees did not offset $1.3 million of applicable credits; for example,
             they did not reduce the rental expense included in the indirect cost pools, which
             was related to income received from the rental.
         •   Seven awardees included $350,000 of excessive costs, such as double-recorded
             expenses, in their pools.

Understated Direct Cost Bases ($7.2 million)

      To fairly allocate indirect costs, Federal cost principles provide guidance for the
inclusion of costs in the direct cost bases. In addition, the cost principles provide guidance
for the inclusion and valuation of donated labor costs in the bases. However, we found that
five awardees did not include all the costs that should have been in the direct cost bases,
and two did not have reliable methods for valuing volunteer services costs included in their
bases.
8
 These numbers represent inaccuracies in the indirect cost proposals used to negotiate rates on behalf of the
Federal government; the numbers do not represent questioned costs applicable to NSF awards. Even if a
portion of any amount was applicable to NSF awards, the inaccuracies did not always result in questioned
costs if the awardee had a predetermined rate that was not subject to subsequent downward revision.




                                                         4
Erroneous Exclusion of Costs from the Direct Cost Bases ($7.2 million)

Applicable cost principles state that costs of activities, including those that are not
allowable as charges to Federal awards, should be included in the direct cost base if
they represent activities that utilize an organization’s personnel, occupy its space,
and otherwise benefit from the organization’s indirect costs. However, five
awardees erroneously excluded a total of $7.2 million of costs that met these criteria
and therefore, should have been included in their direct cost bases so that they could
be allocated their fair share of indirect costs. For example:

•   One awardee excluded unallowable food and catering costs from its direct cost
    bases because it did not understand that these unallowable costs should be
    included in the bases.
•   Another awardee excluded stipends paid to post docs and fellows from its direct
    cost bases because it considered the stipends to be a part of participant support
    costs, even though the auditors found that the post docs and fellows were de
    facto employees and their stipends should be included in the direct cost bases
    with other direct labor costs and assigned the portion of indirect costs used to
    support them.
•   The awardee that excluded stipends from its direct cost bases also improperly
    excluded from its direct cost bases small equipment purchases that did not meet
    its capitalization threshold because it expected to use the equipment for several
    years.

Inadequate Support for the Valuation of Volunteer Service Costs ($62,476)

Rates of reimbursement for volunteer labor should be consistent with the rates paid
for similar work in other activities of the organization. However, one awardee
included volunteer service costs in its direct cost bases without documenting the
type of services performed by the volunteers or the rate of pay for those services. In
addition, the hourly rate assigned to each volunteer was not consistent with the rate
of pay assigned to an employee with similar functions. Similarly, another awardee
did not support its valuation of voluntary service costs with actual salaries or wages
paid to regular employees for comparable work. The lack of support for valuing
this component of the direct cost base reduces the accuracy of proposed indirect cost
rates.




                                         5
Inadequate Documentation ($676,603)

       Although Federal administrative requirements state that awardees’ financial
management systems shall provide accounting records supported by source documentation,
we found that six awardees could not support $676,603 of costs included in their indirect
cost pools. For example:

   •   One awardee could not provide invoices for over three years of credit card charges.
   •   A second awardee was not able to provide adequate supporting documentation for
       senior management travel expenses.
   •   A third awardee could not provide invoices for credit card charges for travel, books
       and magazines, and personnel costs, or support charges such as payments to
       vendors.
   •   Another awardee was not able to provide adequate support for claimed costs
       because it provided only insufficient documentation such as check requests or credit
       card statements with no corresponding receipts.

These unsupported costs did not materially reduce proposed indirect cost rates; however,
they resulted from internal control weaknesses, which if not corrected, could result in
inflated rates in future proposals.

Annual Indirect Cost Proposals Not Timely Submitted to NSF

        Although the cost principles require that organizations with previously established
indirect cost rates must submit a new indirect cost proposal to the cognizant agency within
six months after the end of each fiscal year, three awardees did not submit the required
annual proposals. Specifically, these awardees never submitted five proposals and
submitted five late, including one that was submitted three years after its due date:

   •   One awardee submitted only one proposal from FY 1996-FY 1999, and the
       submitted proposal was nearly a year late. Until the audit, NSF had not reviewed
       this awardee’s indirect cost proposal for five years.

   •   A second awardee did not submit annual indirect cost proposals for four years (FY
       1997-FY 2000), because it believed the inclusion of schedules of the calculation of
       its indirect cost rates in its Single Audit reports was sufficient, and NSF did not
       notify the awardee that it was not in compliance with Federal requirements for
       submission of annual indirect cost rate proposals until 2001.

   •    A third awardee submitted its indirect cost proposals to NSF on a biannual rather
       than an annual basis for FY 1995, 1997, and 1999, although it did submit an FY




                                                6
       2000 proposal after NSF specifically requested it. The awardee stated that it
       submitted biannual indirect cost proposals because NSF had orally approved this
       practice.

        As a result of findings identified in these 11 audit reports, the Federal government
significantly overpaid indirect costs. The average difference between the proposed and
audited rates was about seven percentage points, although in one case the difference was as
much as 46 percentage points. We estimated that over five years the use of the lower
audited rates would result in $5 million of cost savings to the Federal government,
including $2 million to NSF. Further, because awardees’ proposals were missing or late,
NSF was not aware of the most current rates it should apply to new awards. Thus, the
Federal overpayment of indirect costs was probably considerably larger that the cost-
savings numbers indicate. For example, based on the difference between the predetermined
rate and the average audited rate, we estimate that NSF paid about $.5 million of excess
indirect costs to one awardee during 1996 and 1997 because it did not receive annual
proposals in those years and thus could not detect that the awardee’s proposed rates were
higher than its actual allowable rates.




                                                7
AWARDEE PROPOSAL DEFICIENCIES SUGGEST
NEED FOR EXPANDED NSF PROPOSAL REVIEW

Common Internal Control Weaknesses

        Awardees overstated their indirect cost pools, erroneously calculated direct cost
bases, lacked adequate documentation to support costs included in their indirect cost pools,
and did not submit timely annual proposals because of four common internal control
weaknesses. Awardees a) did not understand Federal requirements for the preparation of
indirect cost proposals, including the requirement to submit annual proposals to NSF within
six months of the end of the fiscal year, b) did not have any or adequate policies and
procedures to prepare indirect cost proposals, c) lacked accounting systems to accurately
track and report the allowable direct and indirect costs included in their proposal
submissions, and d) did not have adequate time and effort systems to allocate salary and
wage expenses to indirect and direct activities including NSF awards. 9

    The prevalence of these weaknesses suggests that NSF needs to strengthen its review of
awardees’ indirect cost rate proposals to ensure timely and reliable submissions as a basis to
negotiate awardee indirect cost rates. In particular, NSF needs to evaluate awardees’
processes and procedures regarding the methodologies for treatment of costs used to
prepare indirect cost proposals and assess the risk that proposals may not be reliable as a
basis to negotiate indirect cost rates, or that they may not be timely submitted. Such a risk-
based approach should help detect and prevent findings such as those commonly reported in
the 11 audits.

Inadequate Understanding of Federal Requirements

        Seven awardees proposed inaccurate indirect cost rates because their staffs did not
understand Federal requirements. For example, one awardee did not understand when to
offset applicable credits or exclude unallowable costs included in the indirect cost pools. It
also did not know that stipends paid to de facto employees should be included in the direct
cost bases. In addition, it did not understand how to classify direct costs, which it
erroneously classified as indirect costs; treat non-capital equipment costs, or record costs in
the correct fiscal year. Further, another awardee erroneously included direct costs
(marketing, award expenses, dues, and membership recruitment expenses) in its indirect
cost pools instead of its direct cost bases because its staff was not familiar with applicable
cost principles. Similarly, a third awardee included unallowable costs in its indirect cost
pool because it did not understand Federal requirements on allowable costs.


9
    Appendix E identifies the weaknesses associated with each organization.




                                                          8
        In addition, many of these institutions experienced high staff turnover, lacked staff
specialization in the preparation of indirect cost proposals, and provided little or no
training, resulting in employees not having the necessary knowledge or skills to prepare
indirect cost proposals. This limited training was evidenced in the employees’ general lack
of understanding of applicable cost principles for indirect cost proposals.

Missing or Inadequate Procedures to Prepare Indirect Cost Rate Proposals

        Federal administrative principles state that awardees must have written procedures
to determine the reasonableness, allocability, and allowability of costs in accordance with
applicable cost principles. However, five of the ten awardees audited did not have written
policies and procedures explaining how to prepare indirect cost proposals; and one did not
have written policies and procedures to segregate assets purchased by government funds
from other assets or to identify unallowable expenses. The lack of any or adequate policies
and procedures was the single most common internal control weakness, appearing in 22
separate findings. Also, nonexistent or inadequate policies and procedures for the
preparation of proposals exacerbated the staffing limitations, because employees did not
have institutional procedures on indirect cost proposal methodology to guide them in
preparing submissions to NSF.

Accounting System Deficiencies

        Although awardees’ accounting systems must document allowable costs, six did not
have adequate manual or automated accounting systems. For example, one awardee did not
track salary and wage costs by Federal award, a deficiency that made it difficult to ensure
that costs charged to NSF benefited NSF or that costs in the pools and bases were accurate.
In addition, another awardee, which had about 50 cost centers, did not have an accounting
system that separated direct and indirect costs and only broke out these costs when it
prepared its indirect cost proposals. Such a system was inefficient and error-prone.
Further, two awardees did not have adequate methods to identify and segregate unallowable
costs. In one case, the accounting system did not identify and segregate allowable and
unallowable expenses, resulting in the erroneous inclusion of unallowable costs, including
alcohol and an awards dinner, in its indirect cost pool.

Deficiencies in Time and Effort Reporting

        Non profit awardees must maintain personnel activity reports (PARs) for employees
whose compensation is charged directly to Federal awards and to support the allocation of
costs for employees who charge time to both direct and indirect costs. In addition, PARs
must reflect an after the fact determination of the actual (not budgeted) activity of each
employee, account for employees’ total compensated activity, and be signed by the




                                                9
employee or the employee’s supervisor. Because personnel costs represent the largest
category of expenses charged to the government as both direct and indirect costs, 10 it is
important that awardees have reliable controls over them.

        However, six awardees did not have adequate systems to report time and effort
expenses. For example, two awardees had no systems to track the labor of staff who spent
time on both direct and indirect activities. As such, one of these awardees allocated
approximately 40 percent of its research department costs to the indirect cost pool based on
management review of budgeted costs, as opposed to actual costs supported by PARs. The
other awardee arbitrarily allocated labor costs, constituting 10 percent of its proposed
indirect cost pools, to the indirect pools, or without supporting PARs. Also, a third awardee
could not support allocated indirect salary and wage costs that comprised seven percent of
its proposed indirect cost pool. Without adequate time and effort reporting systems, these
three awardees could not support about $5 million of salary and wages included in their
indirect cost pools.

NSF Needs to Continue Strengthening Its Program
For Reviewing Indirect Cost Proposals

       The prevalence of common internal control weaknesses indicates that NSF needs to
continue strengthening its processes for indirect cost proposal reviews. In particular, NSF
needs to implement a comprehensive risk-based program to help detect and prevent the
types of common findings in these audit reports. At a minimum such a review program
should provide for:

       •   An assessment of awardees’ current financial management capabilities, to determine
           the reliability of the financial systems used to prepare indirect cost proposals;
       •   Maintenance of updated documentation of awardees’ prior rate reviews, to facilitate
           trend analysis;
       •   Written guidance to ensure quality and consistency in NSF’s review process; and
       •   A system to effectively track the receipt of proposals to ensure that they are timely.

        The continued development and implementation of a coherent documented program
for the review of indirect cost proposals could detect and prevent some of the findings in
our audits and thus reduce the risk that negotiated indirect cost rates result in excessive
indirect cost charges to the Federal government.




10
     Labor costs comprise about a third of NSF award costs.




                                                          10
NSF Needs to Obtain Current Information About
Awardees’ Financial Management Systems

    NSF has two guides, Standard Operating Guidance 1990-06 (SOG 1990-06), and
Prospective New Awardee Guide (PNAG,) which include questionnaires to assess new
awardees’ financial management systems. These systems are instrumental in accounting
for the costs used to prepare indirect cost proposals. However, NSF did not routinely
update the information in the questionnaires or require their use during indirect cost
proposal reviews. Updated answers to the questions in SOG 1990-06 and PNAG could
have revealed some of the control problems at the 11 awardees audited, possibly resulting
in corrective action prior to the audits. For example, both SOG 1990-06 and PNAG ask
whether the awardee maintains timekeeping records for each employee to account for 100
percent of his or her total effort. In addition, PNAG requires the awardee to attach a sample
timesheet and provide its procedures for completing timesheets and allocating salary and
wages to Federal awards. If NSF had obtained and reviewed this information during its
proposal reviews of two awardees, it could have identified before our audits that these
awardees did not have systems to track direct and indirect labor costs and were likely to
significantly overstate their indirect cost rates.

    In addition, SOG 1990-06 asks whether the awardee is familiar with all procedures in
the applicable cost principles regarding the allowability of costs on Federal awards.
Information elicited by this question would help identify gaps in awardees’ knowledge of
Federal requirements, the second most common cause of findings in the audit reports. If
NSF had known that awardees’ staffs did not have the requisite training and experience
with Federal requirements, it could have increased its scrutiny of their proposals. NSF also
could have used this information in the years preceding the audits to encourage awardees to
better train their staffs in Federal cost principles and to provide them with effective written
guidance for preparing proposal submissions. Earlier detection that the policies and
procedures were inadequate and subsequent corrective action might have prevented some of
the audit findings.

NSF Needs to Fully Implement its Risk Assessment Processes

       In November 2004 CAARB adopted rules for file maintenance, which require that
as new indirect cost rates are negotiated, information about prior rate negotiations will be
maintained and updated on a separate section of a file. Specifically, the CAARB files will
include previously signed rate agreements, prior calculations showing indirect cost pools
and direct cost bases in detail, the documentation of agreed upon methodologies for the
treatment of costs, and the last three years of rate-calculation documents in their entirety. If
CAARB fully implements these new procedures, NSF will have a stronger framework for




                                                 11
assessing proposal risk, because the information required by the new procedures will
facilitate analytical procedures such as a trend analysis of prior pools, bases, and rates and
reveal significant changes that might indicate new risks of incomplete or inaccurate rate
calculations.

NSF Needs Reviewer Guide

        A proposal review guide establishes office-wide standards for proposal reviews and
helps ensure that reviews are complete and consistent. However, NSF has not developed its
own reviewer guide or adopted another agency’s guide for the analysis of submitted
proposals. Some of the processes, or steps, that would be useful to include in a reviewer
guide would be: Assessment of the completeness of the proposal; reconciliation of total
costs in the proposal to costs on the financial statement; and analysis of any adjustments for
unallowable costs. Other useful steps would include determining if the proposed base will
equitably distribute indirect costs, whether costs are allowable and consistently treated as
direct or indirect, and whether there are factors that would affect the establishment of a
provisional rate. In addition, a guide would require justification for level of review, such as
a desk review or site visit, that each proposal should receive.

        Many of these steps and processes are listed in guides developed at other agencies.
The guide most applicable to NSF is the Review Guide for Non Profit Organization’s
Indirect Cost Proposals published by the U.S. Department of Health and Human Services
(HHS). 11 While CAARB staff often refer to this guide, NSF has no policy requiring it use.
Also, the Cost Negotiator’s Handbook, an internal unpublished document prepared by the
U.S. Department of Labor (DOL), 12 includes two checklists, “Supporting Documentation”
and “Negotiator’s Review Procedures,” which are applicable to NSF’s rate review
activities.

       However, NSF’s proposal review procedures varied from those contained in the
HHS and DOL review guides. (See Appendix C). For all of the 41 proposals reviewed,
NSF obtained audited financial statements for the applicable year; and in most reviews,
documented whether the proposal needed an extensive review or a site visit and determined
whether or not total costs in the proposal reconciled with total costs on the financial
statements. However, there was little evidence that NSF knew if the data in the direct cost
bases was current and accurate; or if the proposed indirect cost pools benefited Federal
awards. If reviewers had determined whether the data in the direct cost bases was accurate,
they would have discovered that one awardee had no policy for documenting the value of

11
  This guide is available on the internet at http://rates.psc.gov/fms/dca/negrev4.pdf. Accessed May 10, 2006.
12
  In December 2004, the Chief of the Division of Cost Determination at the Department of Labor sent us
electronic copies of documents included in this 1999 handbook. We provided copies of these documents to
CAARB staff during our review.




                                                        12
volunteer service costs included in the base; and thus the accuracy of the bases in prior
years as well as in the audited year, could not be determined. Similarly, if reviewers had
determined whether the proposed costs benefited Federal awards, they would have found
that this awardee included depreciation of government-funded assets in its indirect cost
pools, thus overstating its proposed rates.

NSF Needs to Fully Implement its Proposal-Tracking Systems

        NSF needs to track the due dates and actual receipt of proposals to ensure they are
submitted within the required six-month period after the end of an awardee’s fiscal year and
to follow up if they are late. Specifically, we found that of 75 possible proposals 13 there
was no evidence that 17 proposals or 23 percent were ever submitted to NSF. Further, 29
proposals or 39 percent were submitted late. On average, the proposals were submitted
eight months late, although the range was from .5 months to 36 months. This shows that
the finding about missing proposals or untimely submissions was even more common than
the audits indicated, since the findings in the reports were limited only to the audited years.

        In 2004 CAARB created a spreadsheet to track the receipt of proposals. In addition
to proposal receipt dates, the system also tracks other information, such as the status of
review process within CAARB. While we did not review this tracking system as part of
our audit, it appears that it will address the concerns about proposal timeliness as long as
the spreadsheet is regularly updated and NSF follows up on late proposals. However, to
track proposal receipt NSF may also want to consider using a more reliable automated
system to provide notification of pending or late proposals.

RECOMMENDATIONS

       We recommend that the Director of the Division of Institution and Award Support
develop a risk-based program to review indirect cost rate submissions that at a minimum
includes:

     •   Updated assessment of awardees’ financial management systems,
     •   Historical files on prior rate negotiations with each awardee,
     •   Guidance to reviewers on proposal review processes and steps, and
     •   Effective tracking of the receipt of proposal submissions and follow up if they are
         late.




13
  There were only 75 possible proposals because not all the files contained proposals for all 8 years (from
1995-2002).




                                                         13
           NSF’s Response 14


                   NSF generally agreed with the recommendation and stated that it has
           implemented or is in the process of developing or implementing the required
           elements, including historical files on prior rate negotiations with each awardee;
           guidance to reviewers on proposal review processes and steps; and effective
           tracking of the receipt of proposal submissions. However, the response did not
           specifically address the implementation of the first element, updating the assessment
           of awardees’ financial management systems. In addition, the response did not
           address the second part of the fourth element, how the proposal tracking system will
           follow up on untimely submissions.

           OIGs Reply 15

                    We acknowledge that NSF has been implementing its file maintenance
           procedures on a case by case basis as it processes new proposals and is tracking
           proposal receipt on its multi-purpose manual spreadsheet, and plans to develop steps
           to guide its staff in reviewing proposals. However, NSF also needs to address the
           first element of the recommendation: an assessment of awardees’ current financial
           management systems. Many of the findings in the audits resulted from awardees’
           inadequate accounting and time and effort reporting systems on which their indirect
           cost proposals submission are based. Thus, NSF’s understanding of the systems
           used to prepare indirect cost proposals is a critical part of the risk assessment
           process because it helps determine the risk that submitted proposals may not be
           accurate.

                   In addition, the response did not explain how the proposal-receipt tracking
           system would ensure follow up if proposals are late. Although NSF has developed a
           spreadsheet to manually track receipt of indirect cost proposals, NSF needs to
           develop a written process that helps ensure receipt of proposals in a timely manner.
           This process should include assigning responsibility for identifying late proposals
           on the manual tracking system and following up with the awardee when a proposal
           is untimely. We continue to believe that the best method to track and follow up on
           late proposals would be an automated tickler system but would accept a manual
           process supported by written procedures that assigns the responsibility to follow up
           on late proposals.



14
     NSF’s verbatim response appears in Attachment 1.
15
     OIG’s reply to the responses not addressed in this section appears in Attachment 2.




                                                           14
        In summary, NSF needs to incorporate, at a minimum, all of the elements of
the recommendation into a set of written policies and procedures for a
comprehensive proposal-review program.




                                       15
                                     APPENDIX A

                                      OIG AUDITS



                     Institution                Report No.   Years Audited
American Meteorological Society                  02-1016      1998-2000
Mathematical Association of America              03-1001         2000
Bigelow Laboratory for Ocean Sciences            03-1003         2000
American Association of Physics Teachers         03-1004      1997-2000
Academy of Natural Sciences                      03-1006         2000
Carnegie Institution of Washington               03-1007         2000
Bishop Museum                                    03-1010         2000
Missouri Botanical Garden                        03-1011      1999-2000
Educational Broadcasting Corporation             04-1001      2000-2001
American Chemical Society                        04-1009      2000-2001
American Geophysical Society                     05-1011         2002




                                           16
                                                       APPENDIX B

                       COMPILATION OF POSSIBLE STEPS TO REVIEW
                  TIMELINESS AND QUALITY OF INDIRECT COST PROPOSALS

                                                                                   Associated with Audit Finding
                                                                                (The number following X represents the
                                                                                       frequency of the finding)
I. TIMELINESS OF PROPOSAL
 Separate, dedicated database to track periodic review of:                                       X (3)
 1) date proposal due, 2) date received, and 3) follow up action if late
II. DATA QUALITY OF THE PROPOSAL
A. Preliminary Steps
  1. Review permanent file.
    a. Compare current proposal with prior negotiations and identify any
        unusual items or items not discussed in the proposal.
   b. Determine if grantee made changes suggested in prior review in the
      current proposal.
   c. Determine if prior negotiated rate had conditions; and if so, whether
      the organization complied with them.
2. Determine type of rate(s) to be negotiated.
3. Talk with grantee to determine how current information is; and if not
    current, discuss changes.
4. Check the mathematical accuracy of the awardee’s computations.
B. Completeness of Proposal
 1. Separate columns for direct activities and for indirect costs
 2. Obtain audited Financial Statements.
C. Special Rates
     Review and negotiate off-site rate(s), if applicable.                                       X (1)
D. Reconciliation
  1. Reconcile total costs, both allowable and unallowable, to total costs
      on the financial statements.
  2. Analyze adjustments for unallowable costs and those that should be
      Included in the base(s).
  3. Analyze and verify the accuracy of adjustments and reclassifications.
E. Acceptable Base
  1. Determine if the base proposed will equitably distribute indirect
      costs.
   2. Determine if the data in the bases (e.g., square footage, salaries) are
      current and accurate.
F. Allowability, Consistency, and Treatment of Costs
    1. Determine if proposed costs benefit Federal awards.                                       X (1)
    2. If there are multiple pools, determine if the claimed expenses benefit
       all activities included in the associated base.
    3. Determine if the kinds of costs in the pools are consistently treated
       as indirect costs.
   4. Determine if pass-through funds have been excluded from the base.
   5 Determine if personal service costs eliminated from the pool have
      been added to the base.
G. Level of Review
   Determine and document in the file whether the proposal requires
    Extensive review or site visit.
H. Negotiation
   Determine if there are any significant awards pending or changes
    contemplated in the accounting system that would affect the
    establishment of a provisional rate.
I. Update the permanent file

Source: HHS, Review Guide for Non-Profit Organization’s Indirect Cost Rate; DOL, Cost Negotiator’s Handbook, NSF,
SOG 1990-06.



                                                                 17
‘



                                         APPENDIX B (CONTINUED)


                                                                                       Associated with Common Finding
II. THE PROPOSAL IN CONTEXT: CONTENTS OF HISTORICAL FILE
A. Historical Context
  1. Previous signed rate agreements
  2. Previous indirect cost calculations showing pools and bases in detail
  3. Prior documentation of agreed-upon methodology regarding the treatment of
     Costs
  4. Last three years of documents in their entirety
  5. Last two years of A-133s (if applicable)
  6. List of Federal Funds and Percent NSF
  7. The last date of thorough proposal review and its results
  8. Trend Analysis: Compare indirect costs, bases, and rates for last three years
B. Awardee’s Ability to Track Direct and Indirect Costs as Incurred
  1. Description of current financial system                                                       X (3)
  2. Documented understanding of awardee’s ledger/journal system, including
     general, project cost, cash receipts, and cash disbursements ledgers, payroll
     journal; and any other ledgers or journals
  3. Documentation of awardee’s processes for identifying and segregating                          X (5)
     unallowable expenses
   4. Documentation of whether accounting system accounts for award costs                          X (3)
      according to categories in approved NSF budgets
 5. Documentation of awardee’s time distribution system for allocation of salary                   X (6)
     and wages to: a) Federal awards and b) direct and indirect cost categories
  6. Sample time sheets showing allocation of salary and wages to: a) Federal                      X (6)
      Awards, and b) direct and indirect cost categories
  7. Copy or description of awardee’s policies and procedures for tracking,                        X (6)
      documenting, and certifying direct and indirect time
  8. Organization chart (update file before each review)
  9. Chart of accounts                                                                             X (8)
 10. Copy or description of awardee’s policies and procedures for project
      Accounting                                                                                   X (1)
 11. Copy or description of awardee’s policies and procedures for fringe benefits,
      travel, and purchasing                                                                       X (5)
C. Awardee’s Ability to Report Proposed Indirect Cost Rate in Compliance
   with Federal and NSF Requirements
  1. Copy or description of awardee’s policies and procedures for the preparation of               X (22)
     the indirect cost proposal
  2. Documentation of awardee’s experience in preparing indirect cost proposals                    X (13)
  3. Copy or description of awardee’s policies and procedures for property
     management (e.g., exclusion of Government-funded assets from indirect cost                    X (3)
     pool)
  4. Copy or description of awardee’s policies and procedures for vacation, sick                   X (1)
     leave, etc.
  5. Copy or description of awardee’s policies and procedures for valuation of                     X (2)
      volunteer services
D. Awardee’s Ability to Document Costs
    Documentation of awardee’s capability to support accounting entries with                       X (4)
    appropriate documentations (e.g., purchase orders, pre-approved travel orders,
    vouchers, etc.)




                                                               18
                                                 APPENDIX C


                          COMPARISON OF NSF PROPOSAL REVIEW
                          PRACTICES TO POSSIBLE REVIEW STEPS
                                  (41 Proposals Reviewed)


POSSIBLE REVIEW STEPS                                             Evidence   No Evidence    Unable to      Step
                                                                 Step Was     Step Was      Determine      Not
                                                                 Performed    Performed    If Step Was   Applicable
                                                                                           Performed
A. Preliminary Steps
1. Compare current proposal with prior negotiations and             32           9             0             0
    identify any unusual items or items not discussed in the
    proposal.
2. Determine if grantee made changes suggested in prior             10           0             4            27
   review in current proposal.
3.Determine if prior negotiated rate had conditions; and if          9           0             6            26
   so, whether the organization complied with them.
4. Determine type of rate(s) to be negotiated.                      36            0            2             3
5. Talk with grantee to determine how current information           20           19            2             0
   is; and if not current, discuss changes.
6. Check the mathematical accuracy of the awardee’s                 10           29            2             0
   computations.
B. Completeness of Proposal
 1. Separate columns for direct activities and for indirect         35           6             0             0
      Costs
 2. Obtain audited Financial Statements.                            41           0             0             0
C. Special Rates
     Review and negotiate off-site rate(s), if applicable.          6            1             0            34
D. Reconciliation
  1. Reconcile total costs, both allowable and unallowable,         33           5             3             0
      to total costs on the financial statements.
  2. Analyze adjustments for unallowable costs and those            33           5             3             0
      that should be included in the base(s).
  3. Analyze and verify the accuracy of adjustments and             28           10            3             0
      reclassifications.
E. Acceptable Base
  1 Determine if the base proposed will equitably distribute        26            8             7             0
    indirect costs.
  2. Determine if the data in the bases (e.g., square footage,      7            29            5             0
     salaries) are current and accurate.




                                                           19
                                            APPENDIX C (CONTINUED)



POSSIBLE REVIEW STEPS                            Evidence        No Evidence    Unable to     Step Not
                                                Step Was          Step Was      Determine    Applicable
                                                Performed         Performed    If Step Was
                                                                                Performed
F. Allowability, Consistency, and
    Treatment of Costs
1. Determine if proposed costs benefit              8                25            8             0
    Federal awards.
 2. If there are multiple pools, determine if       1                14            9            17
    the claimed expense benefits all
    activities included in the associated
    base.
 3. Determine if the kinds of costs in the         6                 20            14            1
     pools are consistently treated as
     indirect costs.
4. Determine if pass-through funds have            6                 2             31            2
     been excluded from the base.
5 Determine if personal service costs              12                0             29            0
    eliminated from the pool have been
    added to the base.
G. Level of Review
   Determine and document in the file              34                7             0             0
   whether the proposal requires extensive
   review or site visit.
H. Negotiation
   Determine if there are any significant          2                 20            5            14
   awards pending or changes
   contemplated in the accounting system
   that would affect the establishment of a
   provisional rate.




                                                            20
                                                 APPENDIX D

                            COMMON FINDINGS IN AUDIT REPORTS



Institution   Unallowable    Misclassification      Erroneous     Applicable     Inadequate     I/C not Annual
                 Costs       Of Direct Costs       Exclusion of   Credits Not   Documentation
              in I/C Pool      As Indirect         Costs in the     Offset
                                  Costs            Direct Cost
                                                      Base
AMS               x                 x                                                x                x
MAA               x                 x                                 x
BLOS              x
AAPT              x                 x                                 x              x                x
ANS               x                                                                  x
CIW               x                 x                   x             x
Bishop            x                                     x
MBG               x                 x                   x                                             x
EBC               x                                                                  x
ACS                                                     x                            x
AGU                x                x                   x             x              x
TOTAL             10                6                   5             4              6                3




                                                        21
                               APPENDIX E

                 COMMON CAUSES OF FINDINGS


Institution     Inadequate     Inadequate Staff    Accounting     Inadequate
                Policies and     Training and       System       Controls Over
                Procedures       Experience in     Weaknesses   Time and Effort
                  for the       the Preparation                    Reporting
              Preparation of    of Indirect Cost
               Indirect Cost       Proposals
                 Proposals
  AMS               x                                  x              x
  MAA               x                 x                x              x
  BLOS                                x
  AAPT              x                 x                               x
   ANS              x                 x                x              x
  CIW               x                 x
BISHOP              x                 x                x
  MBG               x                                  x              x
  EBC                                                  x
   ACS              x                                                 x
  AGU                                 x
 TOTAL              8                 7                6              6




                                          22
                                  Attachment 1

                  NSF’s Verbatim Response to OIG’s Draft Report
                           Received September 12, 2006

Comment
Summary Report of Eleven Indirect Cost Rate Audits

Overall – We have basically the same comments that were provided verbally to your
staff at the July 10, 2006 meeting on the discussion draft report.

2000 Series – We note that the OIG has changed the numbering sequence from the
1000 series (external) to the 2000 series (internal). We believe this is more
appropriate. However, if the report is to be directed to NSF Management (internal)
then we do not know why it is necessary to repeat the findings (questioned costs) on
individual audit reports that have already been resolved. As an internal audit report
the primary value to NSF Management is not what occurred in an individual indirect
cost rate proposal up to 8-10 years ago, but what recommendations the OIG has and
what steps NSF management can take to improve the indirect cost rate review process.

Repetition of Previous Findings - Throughout the body of the report there are a
number of instances where the OIG is noting that X number of dollars in the indirect
cost pool were questioned here or the awardee failed to include X number of dollars of
direct costs in the direct cost base. We believe that this leaves the final product (an
internal report) jumbled and confusing to read. It also presents the lay reader with the
impression that NSF indirect cost rate negotiators are not doing their job. These
statements could be more properly contained in the audit work-papers than in the body
of the report. In addition, since questioned (audit) versus (sustained) amounts are used
in the report we believe these statements lack proper context and do not accurately
reflect the true impact as to eventual disposition without including the final
determination issued by Management.

CAARB Request for OIG Indirect Cost Rate Audits - We believe it important to
note that a number of the IDC reviews noted in this report were performed at the
request of CAARB personnel after conducting desk reviews in order to determine that
indirect cost rate pools contained allowable costs and the direct costs bases did reflect
all direct cost activities of these awardee organizations. It is also worth noting that a
desk review cannot replace a formal on-site audit in the depth of review of source
supporting documentation. And, hence it is not at all unusual for an audit to bring up
additional concerns that might not otherwise have been detected when performing a
desk review.

Audit Period vs. Projection of Results - The period of time covered by the OIG audit
Reports was roughly 1997 through 2001 while the results (potential cost savings) are
being projected for a four year period from 2000-2004. We do not believe that this is
appropriate. First off the projections are being based on the audit report
recommendations or questioned costs not on the actual costs sustained or not sustained



                                         23
under audit resolution. Secondly, a number of the awardee organizations had fixed
predetermined rates during this period, so that regardless of OIG findings the
reductions in indirect cost rates recommended could not be implemented. Lastly, NSF
rarely negotiates multi-year rates (like DHHS or ONR), instead negotiating indirect
cost rates on a year by year basis. Therefore, the multi-year projections of the funds
that could have been saved are not particularly valuable to NSF Management and may
indeed prove misleading to individuals outside NSF. We would also question such
projections since they were not a statistically valid sample. It is important that the
sample was more often a judgmental sample since the organizations audited were
frequently those entities about which CAAR Cost Analysts had expressed concerns and
had therefore requested OIG audit work in order to supplement and enhance our rate
approval process.

Possible Review Steps – We would like the report to acknowledge that a number of
the recommendations suggested were already implemented (proposal tracking system
& documentation required in files) by NSF prior to and independent of the issuance of
this report. In addition, there are a number of possible review steps noted in the
appendices that are recommended for NSF use based on documentation on IDC review
guides provided by other federal agencies. As far as we know the OIG did not review
the actual steps undertaken by those agencies in practice as opposed to in theory. And,
hence feel that this sort of yardstick type measure may not be appropriate.

OIG Recommendations

CAAR will continue to improve our program for review and negotiation of indirect
costs; this includes evaluation of individual indirect rate proposals for risk on a
proposal by proposal basis as we negotiate each rate agreement. We will update our
SOG to reflect current practice to including guidance for reviewers. As the OIG is
aware, OMB is in the process of issuing a guide for non-profit organizations on
establishing indirect cost rates; once this guidance is published we intend to reference it
as part of our review process.

Currently we assess risk for each organization with which we are working. We review
the amount of federal monies spent annually, review NSF’s participation, and look at
the institutions as a whole. We review and analyze variances in the rate, pool and base
from year to year. We intend to strengthen this aspect of our program and improve
documentation of the analysis done during each review. We believe that assessing risk
in this manner allows us to responsibly assess individual organizations including
consideration for its nature and type. This facilitates the determination of an equitable
indirect cost rate. This is, after all, a negotiation between the Government
representative (NSF) and a particular organization. The risk-based analysis of each
organization for which NSF is cognizant for indirect costs allows us to consider the
nuances of the multiples types of organizations (e.g. museums, associations, etc.) for
which NSF negotiate rates.

As noted in the audit report, we have implemented a systematic and consistent practice
of maintaining our indirect cost files, and we review and update our files in accordance



                                         24
with these practices. We also have a proposal tracking system that identifies all
organizations for which we negotiate rates and the status and due date of submissions.
We keep this spreadsheet current and it is sufficient to track the relatively small
number or organizations for which NSF negotiates annual indirect cost rate
agreements.

Thank you for your comments and insight into the rate negotiation process. We are
pleased that we can agree on areas that need improvement and look forward to moving
ahead in improving our processes.




                                       25
                                                 Attachment 2


                Additional Summary of NSF Responses to Draft Report and OIG Replies

                   As discussed in the report, 16 NSF agreed that it needed to continue to develop
            and implement a program to review indirect cost rate proposals. However, NSF did
            have some comments/misunderstandings about other aspects of the report. In this
            section, we have summarized those NSF responses and have replied to them.

            Issue 1

            2000 Series

            NSF/CAARB

                  Since this is an internal audit report, repetition of findings and dollar amounts
            on individual audit reports that have already been resolved is unnecessary.

            OIG Response

                  The summary report has two sections: 1) summary result of audit findings and
            causes, and 2) implications of the findings for NSF’s processes for proposal review.
            Although CAARB is familiar with the summary results of audit, most readers will
            need this context to understand the importance of and reasons for our recommended
            improvements concerning NSF’s processes for proposal reviews.

           Issue 2

           Repetition of Previous Findings

           NSF/CAARB

                 The report provides dollar amounts for findings, making the essentially internal
           report confusing to read, and implying that NSF cost negotiators are not doing their
           jobs. Any dollar figures should only appear in work papers. In addition, the numbers
           used are audit numbers not post-resolution numbers. The findings thus do not
           accurately reflect the eventual disposition.

           OIG Response

               We eliminated many of the dollar amounts in subfindings, but kept the totals for
           major findings, such as the total dollar amount of overstatement of indirect cost pools
           because they demonstrated the significance of the findings. We reported audit
           findings, not post-resolution findings because audit standards are not the same as those

16
     See NSF responses to the report recommendations at page 14.



                                                         26
used in audit resolution, and we wanted to show the findings according to audit
standards. While we did not evaluate the performance of CAARB cost negotiators
individually, our recommendation for NSF to develop risk-based approach to
processing indirect cost proposals should assist individual cost negotiators in doing a
better job in establishing indirect cost rates for awardee organizations.

Issue 3

CAARB Request for OIG Indirect Cost Rate Audits

NSF/CAARB

    A number of the indirect cost reviews were performed at the request of CAARB
because it determined that there were problems with the submitted proposals. Further,
since audits are more comprehensive than desk reviews, it is not unusual for an audit to
reveal additional concerns that would not be found in a desk review.

OIG Response

    OIG conducted an independent risk assessment of institutions that submit indirect
cost proposals to NSF and based its decision to audit on this assessment, as well as
referrals from CAARB. In addition, the OIG reviews of 41 proposals for 1995-2002
indicated that the lack of policies and procedures for proposal review, which is a
CAARB core function, was a long-standing, systemic deficiency affecting all proposal
reviews not just those of the audited proposals.

Issue 4

Audit Period vs. Projection of Results

NSF/CAARB

1. The period of time covered by the audit was approximately 1997 through 2001,
   while the results (potential cost savings) are projected for a four-year time period
   from 2000-2004.
2. The projections were based on questioned costs not actual costs sustained during
   audit resolution.
3. A number of the awardee organizations had fixed or predetermined rates, so the
   recommended reductions could not be implemented.
4. NSF generally negotiates rates annually, thus multi-year projections of savings are
   not useful and misleading.
5. The reports from which projections were made were not statistically chosen from
   the universe of awardees for which NSF negotiated indirect cost rates.




                                        27
OIG Response

1. We summarized the results of the 11 audits, which covered the period 1997-2002
   (See Appendix A). As part of this summary, we restated cost savings identified in
   five of the audit reports totaling $5 million to the Federal Government, including
   $2 million to NSF, over five years (p. 7). The summary report did not make any
   additional projections of cost savings from 2000-2004.
2. We summarized future cost savings identified in five audit reports or their
   transmittal letters, and NSF sustained the related questioned costs in three of them.
   The costs not sustained were stipend costs and curatorial costs. We reported at one
   institution that stipends were incorrectly excluded from the direct cost bases. We
   continue to believe that these stipend costs were defacto wages that should have
   been included in the bases. Regarding curatorial costs, we reported that another
   institution improperly included curatorial costs in the indirect cost pools. NSF has
   not made a final decision on either of these issues.
3. Concerning fixed or predetermined rates, our projections assume NSF will
   negotiate new indirect cost rates based on lower audited rates.
4. We project saving over five years when we identify systemic problems that will
   continue unless our recommendations are implemented.
5. The projections were only of cost savings at the individual awardees actually
   audited. The summary report does not attempt to project cost savings to the entire
   universe of approximately 90 organizations for which NSF negotiates indirect
   costs.

Issue 5

Possible Review Steps

          NSF/CAARB

     NSF wanted the report to acknowledge that a number of the elements of the
recommendation were already implemented prior to and independent of the issuance of
the report. Also, NSF questioned the use of proposal-review benchmarks from other
agencies because OIG does not know whether the other agencies actually use the
review steps.

OIG Response

    The report states that in 2004 CAARB adopted new rules for file maintenance (p.
11), and created a spreadsheet to track the receipt of proposals (p. 13).

    Of the 21 benchmarks used to evaluate 41 CAARB proposal reviews, 16 or 76
percent came from the published Department of Health and Human Services, Review
Guide for Non-Profit Organization’s Indirect Cost Proposals, the guide CAARB
reviewers sometimes used as a reference guide. The other benchmark steps came from
NSF’s SOG 1990-06 (5 percent) and the Department of Labor’s unpublished Cost



                                        28
Negotiator’s Handbook, which we provided to CAARB staff (19 percent). We used
these steps in the historical analysis because they were: 1) logical steps to include in
proposals review, and 2) listed as review steps by at least one agency that negotiates
indirect cost rates for non-profits. Also, prospectively, it should be noted that the
report does not prescribe the specific steps that CAARB should include in the review
guide it incorporates into its policies and procedures for indirect cost proposal review.




                                         29
